     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




   The World Bank and the Afghan Government Have
  Established Mechanisms to Monitor and Account for
 Funds Contributed to the Afghanistan Reconstruction
Trust Fund, but Some Limitations and Challenges Should
                    Be Addressed




                                       July 22, 2011


SIGAR Audit-11-14 Development and Governance/ARTF
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


July 22, 2011

The Honorable Hillary Rodham Clinton
Secretary of State

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

The Honorable James B. Cunningham
Charge d’Affaires, U.S. Embassy Afghanistan

Dr. S. Ken Yamashita
USAID Mission Director to Afghanistan



This report discusses the results of an audit of World Bank and Afghan government mechanisms to
independently monitor and account for U.S. and donor funds contributed to the Afghanistan
Reconstruction Trust Fund (ARTF), and the Afghan government’s capacity to monitor and account for
these funds. This report includes three recommendations to improve oversight and reporting on the use
of U.S. and donor contributions to the ARTF, and to enhance the Afghan government’s capacity to
manage and account for ARTF funds.

A summary of this report is on page ii. When preparing the final report, we considered comments from
the U.S. Embassy in Kabul and the World Bank. These comments are reproduced in appendices VI and
VII, respectively. SIGAR conducted this performance audit under the authority of Public Law No. 110-
181, as amended, the Inspector General Act of 1978, and the Inspector General Reform Act of 2008.




Herbert Richardson
Acting Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-11-14 Development and Governance/ARTF                                               Page i
                                                       SIGAR Audit-11-14                                            July 2011


               SIGAR
Special Inspector General for Afghanistan Reconstruction
                                                         The World Bank and the Afghan Government Have Established
                                                         Mechanisms to Monitor and Account for Funds Contributed to
                                                             the Afghanistan Reconstruction Trust Fund, but Some
                                                               Limitations and Challenges Should Be Addressed
What SIGAR Reviewed
In 2010, the United States and other donors pledged to channel at least 50 percent of development assistance through
Afghanistan’s national budget within the next 2 years. Created in 2002, the multi-donor Afghanistan Reconstruction
Trust Fund (ARTF) was originally intended to serve as a short-term source of direct assistance to finance Afghanistan’s
non-security related operating budget. It is now expected to close in 2020 and is increasingly funding development
projects. As of April 2011, 32 donors had contributed $4.29 billion to the ARTF; the United States has contributed
almost $972 million. This report assesses the extent to which (1) the World Bank and the Afghan government have
established and implemented mechanisms to independently monitor and account for donor contributions to ARTF, and
(2) the Afghan government has developed the capacity to monitor and account for ARTF funds. SIGAR conducted this
performance audit in Kabul, Afghanistan, and Washington, D.C., from November 2010 to July 2011, in accordance with
generally accepted government auditing standards.

What SIGAR Found
Donors rely on the World Bank, as the ARTF’s administrator, to oversee and report on the uses and results of donor
funding. The World Bank, a monitoring agent hired by the World Bank, and Afghanistan’s Control and Audit Office
(CAO) provide oversight of ARTF funds. The World Bank monitors, evaluates, and reports on development project
results and uses of ARTF funds. The monitoring agent is responsible for monitoring the Afghan government’s operating
expenses. CAO audits Afghan government accounts and records, including accounts funded by ARTF. However, SIGAR
found some limitations in these mechanisms. First, the monitoring agent’s and CAO’s reviews of ARTF funding for the
Afghan government’s operating budget are limited to financial reviews and financial audits, respectively, rather than
performance audits that would allow them to examine and report on the efficiency and effectiveness of ARTF funding.
Second, the monitoring agent has not conducted site visits outside of Kabul to monitor funds since March 2009, and
World Bank and CAO monitoring outside of Kabul is limited. Thus, there has been little independent validation of ARTF
spending outside of Kabul. For example, during its audit of Afghan government operating expenditures between March
2008 and March 2009, CAO auditors only visited 11 out of 34 provinces. Thus, the office did not audit about
$238 million, or 28 percent, of the Afghan government’s $845 million in total non-security operating expenditures to
determine eligibility for ARTF reimbursement. Additional site visits outside Kabul would provide donors with more
assurance that ARTF funds are being used in accordance with the fund’s requirements. Third, the World Bank could
improve its dissemination of reporting on the results and outcomes of ARTF-funded development projects. While some
ARTF donors may receive detailed reporting on certain projects, others may not.
SIGAR found that Afghan ministries have generally increased their ability to manage and account for government
finances, including ARTF funds. For example, ministries have established dedicated units to implement ARTF-funded
development projects. Nevertheless, the Afghan government faces challenges developing and maintaining the civil
service expertise needed to manage and account for ARTF funds. As a result of the capacity constraints, ministries
continue to rely on Afghan contractors and international firms, which are paid using a portion of ARTF project funds. For
example, CAO utilizes an international firm to provide technical assistance on ARTF-related audits. Due to difficulties
developing the capacity of the civil service, the Afghan government may continue relying on non-civil service personnel
to provide support in implementing ARTF-funded projects, which could slow progress in developing long-term civil
service capacity.

What SIGAR Recommends
SIGAR is making two recommendations to the U.S. Ambassador to Afghanistan to urge the World Bank to take steps to
(1) ensure that site visits to the provinces are conducted, on a sample basis, to verify the eligibility of the Afghan
government’s operating expenditures, and (2) enhance reporting to donors on ARTF-funded project results. In addition,
SIGAR is making a third recommendation to the U.S. Ambassador to Afghanistan to continue efforts to enhance the
Afghan government’s ability to attract and retain qualified civil service staff to manage and account for development
funding, including ARTF funds. In commenting on a draft of this report, the U.S. Embassy in Kabul and the World Bank
noted steps that they will take to address these recommendations.
                  For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil




SIGAR Audit-11-14 Development and Governance/ARTF                                                                        Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Mechanisms Established to Independently Monitor and Account for ARTF Funds
   Have Some Limitations ........................................................................................................................... 4
Afghan Government Has Increased Its Capacity to Manage and Account for ARTF
    Funds, but Challenges to Developing and Sustaining This Capacity Within the
    Civil Service Remain................................................................................................................................ 9
Conclusion ................................................................................................................................................... 11
Recommendations ...................................................................................................................................... 11
Comments ................................................................................................................................................... 12
Appendix I: Scope and Methodology ......................................................................................................... 13
Appendix II: U.S. and Other Donor Contributions to ARTF ........................................................................ 15
Appendix III: ARTF Recurrent Cost Window and Incentive Program ......................................................... 18
Appendix IV: ARTF Investment Window .................................................................................................... 21
Appendix V: ARTF Oversight Mechanisms ................................................................................................. 26
Appendix VI: Comments from U.S. Embassy Kabul ................................................................................... 27
Appendix VII: Comments from The World Bank ........................................................................................ 31


TABLES

Table I: Top 10 ARTF Donors, as of April 20, 2011 ..................................................................................... 15
Table II: U.S. Contributions to the ARTF from March 2002 to April 2011, as of
    April 20, 2011 ....................................................................................................................................... 16
Table III: ARTF Recurrent Cost Window Disbursements from March 2002 to
    April 2011, as of April 20, 2011 ............................................................................................................ 18
Table IV: ARTF Baseline Recurrent Cost Funding, Actual Incentive Program
    Allocations as of May 2011, and Potential Incentive Program Allocations.......................................... 19
Table V: Total ARTF Investment Window Commitments and Disbursements
    from March 2002 to April 2011, as of April 20, 2011 ........................................................................... 21
Table VI: Ongoing ARTF Investment Window-funded Development Projects, as
    of April 20, 2011 ................................................................................................................................... 22
Table VII: Closed ARTF Investment Window-funded Development Projects, as of
    April 20, 2011 ....................................................................................................................................... 24


FIGURES AND PHOTOS

Figure I: Actual and Projected ARTF Recurrent Cost Window Funding as a
    Percentage of Afghanistan’s Operating Budget from 2003 to 2016 .................................................... 20



SIGAR Audit-11-14 Development and Governance/ARTF                                                                                                     Page iii
Figure II: Actual and Projected ARTF Investment Window Funding as a
    Percentage of Afghanistan’s Development Budget from 2003 to 2016 .............................................. 25
Figure III: Oversight Mechanisms for the ARTF Recurrent Cost and Investment
    Windows ............................................................................................................................................... 26


ACRONYMS

ARTF                                Afghanistan Reconstruction Trust Fund
CAO                                 Control and Audit Office
EQUIP                               Education Quality Improvement Program
MoE                                 Ministry of Education
MoF                                 Ministry of Finance
MoPW                                Ministry of Public Works
MRRD                                Ministry of Rural Rehabilitation and Development
NERAP                               National Emergency Rural Access Project
NSP                                 National Solidarity Program
PAM                                 Performance Assessment Matrix
PwC                                 PricewaterhouseCoopers-Netherlands
SIGAR                               Special Inspector General for Afghanistan Reconstruction
USAID                               U.S. Agency for International Development




SIGAR Audit-11-14 Development and Governance/ARTF                                                                                                   Page iv
    The World Bank and the Afghan Government Have Established Mechanisms to
    Monitor and Account for Funds Contributed to the Afghanistan Reconstruction
        Trust Fund, but Some Limitations and Challenges Should Be Addressed


In 2010, the United States and other donors pledged to provide at least 50 percent of their development
assistance through the Afghan government’s national budget within the next 2 years. Many donors view
the Afghanistan Reconstruction Trust Fund (ARTF) as the key mechanism for providing this direct
assistance to Afghanistan. ARTF, created in March 2002, facilitates multi-donor direct assistance to
support Afghanistan’s financial and reconstruction needs in line with Afghan priorities. As of April 20,
2011, ARTF had received $4.29 billion in contributions from 32 donors, with the United States
contributing almost $972 million—nearly 23 percent—of the total amount. 1

The United States and other donors rely on the World Bank, as the ARTF administrator, to oversee and
report on the uses and results of ARTF funding, and to provide oversight of Afghan ministries receiving
ARTF funds. However, U.S. and other officials have expressed concerns about ARTF oversight
mechanisms, and the capacity of the World Bank and the Afghan government to oversee additional
funds.

This report assesses the extent to which (1) the World Bank and the Afghan government have
established and implemented mechanisms to independently monitor and account for donor
contributions to ARTF, and (2) the Afghan government has developed the capacity to monitor and
account for ARTF funds.

To accomplish these objectives, we reviewed and analyzed the U.S. Agency for International
Development (USAID) grant agreement with the World Bank and data detailing U.S. contributions to the
fund. 2 In addition, we analyzed World Bank quarterly ARTF reports to donors and monthly
administrator’s reports. We also examined the World Bank’s ARTF grant agreement with the Afghan
government, policies and procedures for project oversight, development project documents, contracts
for a monitoring agent, and annual and quarterly monitoring reports. We also reviewed Afghanistan’s
national budgets and development project documents. In addition, we interviewed relevant U.S. officials
at Embassy Kabul, World Bank and monitoring agent representatives, Afghan government officials, and
Kabul-based representatives of 11 ARTF donors. We conducted our work in Kabul, Afghanistan, and
Washington, D.C., from November 2010 to July 2011, in accordance with generally accepted
government auditing standards. A discussion of our scope and methodology is in appendix I.




1
  The World Bank transferred a $2.4 million contribution from the United Nations Development Program to a separate fund for
the Afghan Interim Authority. Total contributions also include a $21.6 million contribution to the Law and Order Trust Fund for
Afghanistan.
2
  The United States provides contributions to ARTF through a grant from USAID to the World Bank.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                       Page 1
BACKGROUND

The World Bank formally established ARTF in March 2002 in response to requests from the interim
Afghan government and international donors for a multi-donor mechanism to support the Afghan
government following the fall of the Taliban regime. With an initial closing date of June 30, 2006, the
fund was originally intended to serve as the major, short-term source of direct assistance for financing
Afghanistan’s non-security related operating budget until the Afghan government could raise revenues
to cover its own operating costs. 3 However, since its inception, ARTF has increasingly funded
development projects aligned with Afghan reconstruction priorities defined in the Afghanistan National
Development Strategy. As a result, donors first agreed to extend the fund’s closing date to June 30,
2010, and then later to June 30, 2020. ARTF’s four main objectives are to:

    •    position the Afghan government budget as the key vehicle to align international reconstruction
         assistance with Afghan development objectives;
    •    promote transparency and accountability of reconstruction assistance;
    •    reduce the burden on an Afghan government with limited capacity while simultaneously
         promoting Afghan capacity building over time; and
    •    enhance donor coordination.

As of April 20, 2011, 32 donors have contributed approximately $4.29 billion to ARTF. 4 Of these donors,
around 15 contribute regularly to the fund. The top five donors—the United States, United Kingdom,
Canada, the Netherlands, and the European Union—account for over $3 billion, or about 72 percent, of
total contributions. As the largest donor, the United States has contributed approximately $972 million
to ARTF. Appendix II provides a breakdown of U.S. and donor contributions to ARTF, as well as a
breakdown of U.S. contributions by funding purpose.

ARTF has two main funding types, or windows: Recurrent Cost and Investment. 5 The Recurrent Cost
Window finances the Afghan government’s non-security related operating budget, which largely consists
of payroll costs for Afghan civil servants, as well as some operations and maintenance expenditures. The
Recurrent Cost Window funds these costs on a reimbursable basis up to a pre-determined funding cap.
For the Afghan government to receive reimbursement for its operating expenditures, the expenditures
must meet eligibility criteria defined in the ARTF grant agreement between the World Bank and the
Afghan government. As of April 20, 2011, the Recurrent Cost Window had disbursed a total of about
$2.22 billion, of which approximately $1.7 billion funded Afghanistan’s payroll and $532 million funded
operations and maintenance expenditures. In December 2008, the World Bank, the Afghan government,
and donors agreed to establish the Incentive Program within the Recurrent Cost Window. The Incentive
Program provides the Afghan government with funding if it meets pre-defined benchmarks in such areas
as revenue generation, public sector governance, and private sector development. For more information
on the Recurrent Cost Window and Incentive Program, see appendix III.



3
  International donors have largely funded Afghanistan’s security-related budget, which includes military and police expenses,
bilaterally and via the Law and Order Trust Fund for Afghanistan.
4
  This includes a $2.4 million contribution from the United Nations Development Program for the Afghan Interim Authority
fund, and approximately $21.6 million in pass-through funding to the Law and Order Trust Fund for Afghanistan.
5
  When ARTF was first established, there were separate sub-funds for debt repayment, a pass-through to the Law and Order
Trust Fund for Afghanistan, and the Afghan Expatriate Program and Lateral Entry Programs. These sub-funds are now closed,
and the expatriate and lateral entry programs have been merged into a capacity building program under the Investment
Window.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                       Page 2
The ARTF Investment Window provides grant funding for development projects that support the
national priority programs defined in Afghanistan’s development budget.6 To date, the Investment
Window has disbursed a total of about $1.31 billion to fund 34 development projects, 19 of which were
ongoing as of April 20, 2011. 7 The largest ongoing projects are the National Solidarity Program (NSP) III, 8
the Education Quality Improvement Program (EQUIP) II, and the National Emergency Rural Access
Project (NERAP). Appendix IV includes more information on the Investment Window and ARTF-funded
development projects. From March 2009 to March 2010, 9 the most recent year for which complete data
are available, ARTF funded approximately 15 percent of the Afghan government’s core operating and
development expenditures. 10

ARTF has a three-tier governance structure. The Steering Committee, which consists of all ARTF donors,
the World Bank, and the Afghan Ministry of Finance (MoF), is the main decision-making body for the
fund. The Steering Committee meets quarterly to set ARTF policy and financing strategy, provide
guidance to the ARTF Management Committee on fund allocation strategies, and review progress on
ARTF activities. 11 The Management Committee meets monthly and is responsible for reviewing and
approving funding allocations in line with the ARTF financing strategy, and reporting to donors on
operations and activities financed by ARTF, as well as on decisions made by the committee. 12 The World
Bank administers ARTF and is responsible for day-to-day fiduciary oversight and management of the
fund, and for the supervision of development projects. 13 This includes providing oversight of the Afghan
ministries implementing ARTF-funded projects.

Like other ARTF donors, the United States relies on the World Bank, as the fund’s administrator, to
oversee the use of funds. Neither USAID nor other sections at U.S. Embassy Kabul independently
oversee the use of U.S. funds contributed to ARTF. Further, per the agency’s grant agreement with the
World Bank, USAID has limited rights to audit U.S. contributions to the fund. However, to track ongoing
ARTF activities and developments, USAID has assigned three agency personnel at the U.S. Embassy in




6
  To prioritize the initiatives contained in the Afghanistan National Development Strategy, the Afghan government is developing
22 National Priority Programs. These programs represent Afghanistan’s priority areas in different sectors that need greater
investment from 2010 to 2013. These programs seek to create jobs, connect markets, and increase the social and economic
well-being of the people. They also aim to strengthen security in different parts of the country and ensure a smooth transition
of security from international partners to Afghan National Security Forces.
7
  The 34 total ARTF-funded development projects include two police projects funded via a pass-through of ARTF funds to the
United Nations Development Program-administered Law and Order Trust Fund for Afghanistan. In addition, some projects, such
as NSP and EQUIP, have multiple phases, each of which is counted as a separate project.
8
  See SIGAR Audit-11-8, Afghanistan's National Solidarity Program Has Reached Thousands of Afghan Communities, but Faces
Challenges that Could Limit Outcomes, March 22, 2011.
9
  The Afghan government’s fiscal year is the solar year. Solar year 1388 began on March 21, 2009 and ended on March 20,
2010. The current fiscal year, solar year 1390, began on March 21, 2011 and will end on approximately March 20, 2012.
10
   The Afghan government’s budget is divided into the core and external budgets. The core budget tracks funds that flow
through the Afghan treasury while the external budget includes expenditures directly expended by donors outside the treasury
system. From March 21, 2009 to March 20, 2010, Afghanistan’s solar year 1388, the core budget expenditures amounted to
about $2.66 billion. Of this, Afghanistan’s revenue covered about 48 percent of expenditures while donor grants, including
ARTF, funded about 51 percent of expenditures. This resulted in a fiscal deficit of $41 million for the year.
11
   Two smaller donor working groups, the Strategy Group and the Incentive Program Working Group, engage with the World
Bank and the Afghan government on more technical issues.
12
   The Management Committee consists of representatives from the World Bank, Asian Development Bank, Islamic
Development Bank, United Nations Assistance Mission in Afghanistan, United Nations Development Program, and the MoF.
13
   The World Bank receives an administrator’s fee of 1.5 percent of ARTF contributions to fund its oversight of the fund. From
the creation of ARTF in March 2002 through March 20, 2011, the World Bank had received a total of $64.4 million in fees. In
late 2010, donors endorsed increasing the fee to 2 percent, and in February 2011, the World Bank Board of Executive Directors
approved the increase. World Bank officials expect this fee increase to take effect in July 2011.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                      Page 3
Kabul to monitor the fund. In addition, the Office of the Coordinating Director for Development and
Economic Affairs and the Treasury Attaché at the embassy have personnel who follow the fund. 14


MECHANISMS ESTABLISHED TO INDEPENDENTLY MONITOR AND ACCOUNT FOR ARTF FUNDS
HAVE SOME LIMITATIONS

The World Bank and the Afghan government have established mechanisms to independently monitor
and account for ARTF funds; however, these mechanisms have some limitations. Oversight of ARTF
funds consists of a combination of standard World Bank procedures for supervising World Bank-funded
projects, a contracted monitoring agent for funds covering Afghanistan’s non-security operating costs,
and mandatory audits by Afghanistan’s Control and Audit Office (CAO). However, monitoring of non-
security operating costs is limited to financial reviews and audits. In addition, there is limited
independent validation of ARTF spending outside of Kabul. Furthermore, the World Bank does not
disseminate reports on the results and outcomes of ARTF-funded development projects to all ARTF
donors.

World Bank and CAO Provide Independent Oversight of ARTF Funds

Standard World Bank policies and the ARTF grant agreement between the World Bank and the Afghan
government both detail the procedures the World Bank must follow to administer and oversee ARTF
funds, as well as requirements for the Afghan government to expend these funds. World Bank policies
address overall requirements for trust fund administration, fund disbursement, financial management,
procurement, supervision, and access to information, as well as other issues. 15 The grant agreement
requires the Afghan government to, among other things, follow standard World Bank procurement
policies when expending ARTF funds. Further, the grant agreement and the World Bank’s legal
agreement with USAID state that an independent monitoring agent will review all ARTF expenditures.

The grant agreement between the World Bank and the Afghan government requires the World Bank to
obtain an independent monitoring agent to monitor all operating expenditures financed by ARTF funds.
In June 2002, the World Bank contracted with PricewaterhouseCoopers-Netherlands (PwC) to serve as
the monitoring agent for the Recurrent Cost Window. 16 The monitoring agent determines whether the
Afghan government’s operating cost expenditures are eligible for reimbursement from ARTF. 17 The
monitoring agent screens MoF’s requests for reimbursement to verify that expenditures are eligible
before submitting the requests to the World Bank. To provide oversight of ARTF Investment Window-
funded development projects, the World Bank assigns World Bank staff to task teams for each project.
These teams consist of a team leader, financial management and procurement specialists, technical
experts, and other personnel, depending on the project’s needs. Task teams are responsible for
overseeing the implementing Afghan ministries’ use of ARTF funds and ensuring that these funds are
used in accordance with project grant agreements signed between the World Bank and the Afghan


14
   These personnel regularly communicate with World Bank staff on ARTF issues, attend quarterly Steering Committee
meetings, and participate in donor working groups. In addition, USAID personnel have participated in World Bank supervision
missions for ARTF-funded projects. Other sections at the U.S. Embassy in Kabul tangentially follow ARTF.
15
   World Bank’s complete operational manual, including these and other policies, is available on the World Bank’s Web site.
16
   Following an open competition for the contract, the World Bank re-awarded the monitoring contract to PwC in 2005 and
2008, the latter of which is still in effect.
17
   Under the contract, the monitoring agent is required to review the Afghan government’s requests for ARTF reimbursement to
ensure that funds are (1) disbursed only for the purposes provided for in the ARTF grant agreement between the World Bank
and the Afghan government, and (2) used in accordance with World Bank procurement procedures and acceptable financial
and auditing standards.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                   Page 4
government. 18 To accomplish this, task teams conduct supervision missions of projects at least twice a
year. In addition, these task teams conduct mid-term reviews and final reviews when projects are
completed. Throughout this process, the task teams produce reports for the World Bank on the status of
ARTF-funded projects. In addition, the World Bank requires Afghan ministries to report to the World
Bank on project implementation. The World Bank includes summary implementation status updates
based on these reports in its quarterly reports to ARTF donors.

As Afghanistan’s supreme audit institution, CAO is responsible for assessing ministries’ financial
reporting to ensure that they are in compliance with laws and regulations. 19 In addition, CAO
independently oversees the Afghan government’s use of ARTF funds. CAO certifies the government’s
financial statements and conducts annual audits of the Afghan government’s operating account and of
accounts for projects funded by the World Bank and ARTF under the development budget. According to
the ARTF grant agreement between the World Bank and the Afghan government and to CAO’s mandate,
the office is to audit records and accounts of all ARTF expenditures for both operating costs and
development projects, and submit these audit reports to the World Bank no later than 6 months after
the close of the fiscal year. In conducting these audits, CAO examines whether Afghan government
expenditures are eligible for ARTF funding. Per its agreement with the World Bank, the Afghan
government must refund any ineligible ARTF expenditures to the trust fund. 20 CAO receives technical
assistance from the international auditing firm PKF International to plan and conduct ARTF audits.
Appendix V provides a summary of ARTF oversight mechanisms.

Officials at the U.S. Embassy in Kabul told us that ARTF is one of the better mechanisms for providing
direct assistance to the Afghan government due to the World Bank’s established and standardized
oversight procedures. However, these officials expressed concerns about the extent to which the World
Bank is implementing its procedures to provide sufficient oversight of ARTF funds. Other donor officials
indicated that the World Bank’s long-established oversight procedures were key reasons why they chose
to support the Afghan government via the ARTF rather than using other mechanisms. Donors also stated
that in addition to providing direct assistance to the Afghan government, ARTF provides benefits such as
facilitating donor coordination, serving as a platform for discussions of national policy and reform, and
enabling smaller donors to be involved in decision making.

Monitoring of Recurrent Cost Window Consists Primarily of Financial Reviews and Audits

Neither the monitoring agent nor the CAO conducts performance audits to examine the efficiency and
effectiveness of funding expended under the ARTF Recurrent Cost Window. Under its contract with the
World Bank, the monitoring agent conducts financial reviews of Afghan government expenditures to
determine whether they are eligible for reimbursement from the Recurrent Cost Window. The
monitoring agent’s quarterly and annual reports covering the period from March 2009 to December
2010 indicate that these procedures do not constitute an audit. PwC’s contract with the World Bank
does not require it to perform financial or performance audits of ARTF Recurrent Cost Window

18
   The World Bank’s supervision policy requires staff to (1) determine whether funds are being used to achieve development
objectives, (2) identify problems and recommend solutions, and (3) highlight project risks.
19
   The 1981 Afghan Control and Audit Law gives CAO, as Afghanistan’s supreme audit institution, audit authority over state
entities within the central and provincial governments as well as of public enterprises. The office’s objectives include
1) protecting public funds and taking action against errors, irregularities, and misuse of public property; 2) preventing illegal
expenditures; 3) reviewing the systems of control over government receipts and payments; and 4) guaranteeing the accuracy of
aid and grants provided by donor countries.
20
   Since the March 2006 to March 2007 fiscal year, the Afghan government’s operating costs have exceeded the maximum
amount of funding available for reimbursement under the Recurrent Cost Window. As a result, CAO’s findings have resulted in a
substitution of the ineligible expenditures for an equal amount of eligible expenditures, rather than the Afghan government
reimbursing these funds back to ARTF.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                        Page 5
expenditures. Rather, PwC’s monitoring activities are based on procedures defined in the terms of
reference to its contract with the World Bank. The terms of reference require PwC to monitor all ARTF
recurrent cost expenditures, monitor the Afghan government’s procurements of goods and services, and
review MoF’s requests for ARTF reimbursement.

In accordance with its mandate, CAO, with the assistance of PKF International, conducts financial audits
of all Afghan government accounts and financial statements, including the operating account, which is
partially financed by ARTF Recurrent Cost Window funds. We previously reported that CAO does not
conduct performance audits because it lacks the capacity to do so. 21 While CAO has started performing
some limited performance auditing, the office does not conduct performance audits of ARTF-funded
accounts.

To monitor the performance of Afghanistan’s core operating budget expenditures and establish a results
framework for the Recurrent Cost Window, the World Bank introduced the ARTF Performance
Assessment Matrix (PAM) in 2006 and began including it in quarterly donor reports in March 2008. PAM
is intended to provide an assessment of the Afghan government’s effectiveness by tracking trends in
Afghan and donor performance across selected areas. PAM tracks the Afghan government’s
performance in the areas of public financial management, aid effectiveness, public administration
reform, education, and health. In addition, PAM provides a platform for dialogue between donors and
the Afghan government on core policy areas, and complements the ARTF Incentive Program.

Monitoring Agent, World Bank, and CAO Monitoring of ARTF Funds Expended Outside of
Kabul Is Limited

Since March 2009, the monitoring agent for the ARTF Recurrent Cost Window has not conducted any
site visits to the provinces. As a result, the agent has not verified first-hand approximately $790 million
of the Afghan government’s non-security related payroll and operations and maintenance funds
expended in the provinces. This amounted to about half of the government’s total non-security related
payroll and operations and maintenance expenditures from March 2009 to December 2010. The
monitoring agent’s contract with the World Bank specifies that the agent is expected to hire
subcontractors, if necessary, to undertake specific site visits when such visits cannot be conducted by
the monitoring agent. 22 A senior PwC official stated that security concerns had prevented them from
conducting visits to provincial government offices. In lieu of visiting provincial offices, he stated that PwC
requested that ministries transfer files and supporting documents from the provinces to Kabul for
review. However, during this time, CAO found that the World Bank had disbursed ARTF funds to the
Afghan government for expenditures that did not comply with the grant agreement. Although World
Bank officials stated that they informed ARTF donors as early as spring 2009 that the monitoring agent
would not be conducting site visits outside of Kabul, donor officials we spoke to expressed concern
about the monitoring agent’s continued lack of provincial visits. Further, Afghan ministry officials told us
that provincial and district offices have less capacity to oversee expenditures than the ministries in
Kabul. Although the World Bank and PwC have taken steps to ensure that ARTF Recurrent Cost Window
funds are being expended in accordance with the grant agreement between the World Bank and the
Afghan government, provincial site visits may provide donors with additional assurance that these funds
are being used appropriately.


21
   See SIGAR Audit-10-8, Afghanistan’s Control and Audit Office Requires Operational and Budgetary Independence, Enhanced
Authority, and Focused International Assistance to Effectively Prevent and Detect Corruption, April 9, 2010.
22
   The monitoring agent’s contract also includes a clause that states that if the agent is unable to fulfill its obligations in the
event of specific circumstances, such as war, civil disorder, and natural disasters, this would not be considered a breach of
contract.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                            Page 6
Despite the lack of site visits since March 2009, the World Bank did not curtail its contract with PwC nor
require PwC to obtain a subcontractor to conduct provincial site visits during this time. Instead, in a
modification to PwC’s most recent contact signed in 2008, the World Bank nearly tripled the cumulative
costs allowed to provide security from about $700,000 to $1.9 million. 23 World Bank officials told us that
they revised the monitoring agent’s terms of reference to more explicitly require site visits to the
provinces, and they have yet to extend the agent’s current contract for an optional third year. In May
2011, PwC told the World Bank that it does not intend to renew its current contract as the ARTF
Recurrent Cost Window monitoring agent for a third year because of its concerns about security. PwC
will let its contract expire in September 2011 after completing monitoring of expenditures between
March 2010 and March 2011. Per its revised terms of reference, the World Bank is requiring that PwC,
or its subcontractor, conduct site visits in at least 12 provinces to monitor and verify these expenditures.
The World Bank has started the process of obtaining a new monitoring agent for the Recurrent Cost
Window and expects the new agent to be in place by the time PwC’s contract ends.

With respect to the ARTF Investment Window, we found that World Bank task teams conducted limited
visits outside of Kabul during supervision missions for Investment Window-funded projects. World Bank
policies require World Bank staff to monitor trust fund expenditures by evaluating results and
systematically and objectively assessing ongoing or completed projects. We reviewed 14 World Bank
project reports from 2008 to the present for the three largest ARTF-funded development projects—NSP,
EQUIP II, and NERAP. In five cases, we noted that the teams only visited one or two provincial sites,
while in six other cases the teams did not visit any provinces. In the three remaining cases, it was
unclear whether teams conducted provincial visits. The extent to which World Bank task teams
conducted site visits varied by project. For example, the NSP team visited four confirmed provincial
sites. In contrast, the NERAP task team did not visit any provinces during its supervision mission and
mid-term review conducted in late 2009 and mid-2010, respectively. The NERAP reports cited security
concerns as the main reason for not visiting project sites in the provinces. In the absence of site visits,
the NERAP task team had to obtain information on the status of projects from the implementing Afghan
ministries and subcontractors, and did not independently verify this information. The World Bank’s
supervision policy does not require task teams to conduct site visits outside of Kabul during supervision
missions because the goal of such missions is to engage with implementing ministries to ensure that
proper project administration and monitoring mechanisms are in place. However, World Bank guidance
indicates that task teams should conduct periodic visits to project sites and facilities to review progress,
as appropriate. Furthermore, World Bank officials acknowledged that increased independent
verification of project implementation status through provincial site visits would be beneficial.

According to World Bank officials, their task teams traveled more frequently to the provinces to
independently monitor ARTF Investment Window-funded projects prior to 2009. Since then, insecurity
and logistics challenges have reduced their ability to conduct visits to some provinces. World Bank
officials told us that task teams based in Kabul conduct regular site visits in addition to those conducted
during supervision missions. For example, although the NERAP task team’s supervision missions in late
2009 and 2010 did not include provincial site visits, according to World Bank officials, the team did
conduct site visits to seven locations outside of Kabul during 2010.

Although the ARTF grant agreement between the World Bank and the Afghan government and the ARTF
donor framework agreement indicate that a monitoring agent was to monitor all ARTF expenditures, the
World Bank only obtained a monitoring agent for the Recurrent Cost Window given the high number of
transactions and level of risk, and the World Bank’s existing development project supervision

23
  The actual security costs allowed in the monitoring agent’s contract were 475,000 euros, which later increased to 1.35 million
euros.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                       Page 7
procedures. However, in June 2010, the World Bank began the process of obtaining a monitoring agent
to expand its oversight of ARTF Investment Window-funded development projects, particularly in
locations outside of Kabul. The World Bank will require the new monitoring agent to conduct site visits
in all 34 provinces in Afghanistan. World Bank officials told us that they expect to award the monitoring
agent contract in mid-July 2011. According to the World Bank, the contract will require the monitoring
agent to focus its efforts on the three largest ARTF-funded projects—NSP III, EQUIP II, and NERAP—
during the first year, with other projects added in subsequent years. Hiring a monitoring agent for the
Investment Window and increasing the number of provincial site visits conducted by World Bank task
teams may provide ARTF donors with further assurance that the Afghan government is using these
funds as called for by ARTF grant agreements and project requirements. This is important given the
continued shift in ARTF funding from operating budget support under the Recurrent Cost Window to
more support for development projects funded by the Investment Window.

CAO conducted some site visits outside of Kabul while performing audits of ARTF Recurrent Cost and
Investment Window expenditures. During its audit of Afghan government operating expenditures
between March 2008 and March 2009, CAO auditors visited 11 out of 34 provinces, which meant that
the office did not audit about $238 million, or 28 percent, of the Afghan government’s total non-security
operating expenditures of $845 million to determine eligibility for ARTF reimbursement. Similarly, due
to security concerns, CAO auditors visited six provinces while conducting the audit of expenditures from
March 2007 to March 2008. Because of this, CAO could not provide assurance as to the accuracy,
completeness, and eligibility of transactions in the unvisited provinces. Furthermore, CAO did not
independently evaluate approximately $163 million, or 40.8 percent, of the almost $400 million of the
Afghan government’s submitted operating expenditures. Moreover, in some cases, CAO auditors
reviewing ARTF expenditures on NSP visited few locations outside of provincial capitals to review project
expenditures. Given CAO’s role as Afghanistan’s supreme audit institution, increasing provincial site
visits conducted during annual ARTF-related audits may provide donors with additional assurance that
ARTF funds are being expended for their intended purpose.

World Bank Dissemination of Reporting on the Results and Outcomes of ARTF-Funded
Development Projects Is Limited

The World Bank does not regularly disseminate reporting on the results and outcomes of ARTF-funded
development projects to all ARTF donors. ARTF agreements between the World Bank and donors
require the World Bank to report quarterly to donors on the status of ARTF funds. In addition, World
Bank policies require the World Bank to report on whether a project’s development objectives are being
achieved and whether funds are being used in conformity with donor agreements. Although the World
Bank reports quarterly to donors as required, these reports tend to provide more detail on the financial
status of active ARTF-funded projects rather than information on project results and outcomes. We also
found that while the World Bank makes a variety of ARTF-funded project reports available to the public,
reports for closed projects are not consistently available. Given that ARTF projects tend to build upon
other projects in the same sector, there is value in making information on closed projects, particularly
the results and outcomes of these projects, publically available. Furthermore, although the World Bank
has regularly distributed task team supervision reports to ARTF donors within the sector since July 2010,
other donors outside of the sector may benefit from having this information as they make funding
decisions.

Several donor officials we spoke to also stated that the World Bank generally provides project
documentation too late to allow them to sufficiently analyze the information before the quarterly
Steering Committee meetings. For example, a senior official at the U.S. Embassy in Kabul told us that he
received ARTF documentation only a few days prior to the quarterly meeting held in London in January
SIGAR Audit-11-14 Development and Governance/ARTF                                                  Page 8
2010. As a result, he did not have time to thoroughly review the documents or obtain technical feedback
from subject matter experts at Embassy Kabul before the meeting.

To enhance reporting on the results of ARTF-funded development projects, the World Bank recently
developed a draft framework for monitoring the results of ARTF-funded development projects with the
goal of helping ARTF donors and other stakeholders track the results of these projects. The proposed
Investment Window results framework would aggregate project results across five sectors—rural
development, agriculture, infrastructure, human development, and public sector reform—as well as
cross-cutting issues of gender and connectivity. The draft framework, which the World Bank plans to
update annually, will include first year, current, and target values for each indicator.


AFGHAN GOVERNMENT HAS INCREASED ITS CAPACITY TO MANAGE AND ACCOUNT FOR ARTF
FUNDS, BUT CHALLENGES TO DEVELOPING AND SUSTAINING THIS CAPACITY WITHIN THE
CIVIL SERVICE REMAIN

Afghan ministries receiving ARTF funds have taken steps to improve their ability to manage and account
for these funds, including developing financial management and personnel tracking systems to monitor
operating cost expenditures. Despite these efforts, ministries face challenges developing and sustaining
capacity within the Afghan civil service. The most qualified Afghans tend to work in positions outside of
the civil service. As a result, ministries continue to rely on non-civil service personnel, such as Afghan
contractors and personnel employed by international firms, to manage and account for ARTF funds,
particularly funding for development projects.

Afghan Ministries Have Enhanced Their Capacities to Manage and Account for ARTF Funds

The Afghan government has taken steps in key ministries to increase its capacity to manage and account
for government finances, including ARTF and other direct assistance funding from donors. The MoF now
tracks all Afghan government financial transactions, such as revenues, expenditures, fund
disbursements, and cash transfers, through the Afghanistan Financial Management Information System,
which is operational in all line ministries and in the provinces. Furthermore, the MoF has reduced the
risk of fraud and corruption by using electronic funds transfers to pay many Afghan civil servant
salaries. 24 As of March 2010, approximately 207,000, or 53 percent, of the Afghan government’s
approximately 390,000 non-security employees received their salaries via electronic funds transfer. The
Ministry of Education (MoE) has created an employee registration database to verify the identities of,
monitor, and track all ministry-employed teachers in Kabul and the provinces. 25 Teachers must be
entered in the database in order to receive their salaries. In addition, as a result of capacity building
efforts, MoE civil service personnel manage all project implementation responsibilities for EQUIP II using
the ministry’s financial management, procurement, and oversight mechanisms. Other ministries
implementing ARTF-funded projects, such as the Ministries of Rural Rehabilitation and Development
(MRRD) and Public Works (MoPW), have established program implementation units responsible for
administering and managing these projects. The World Bank funds training for these program


24
   See SIGAR Audit-11-10, Despite Improvements in MoI’s Personnel Systems, Additional Actions Are Needed to Completely
Verify ANP Payroll Costs and Workforce Strength, April 25, 2011.
25
   Between March 2009 and March 2010, MoE accounted for 38 percent of non-security spending and was the largest
beneficiary of ARTF Recurrent Cost Window funds. These costs were mainly for teachers’ salaries as teachers account for
almost half of all Afghan civil servants. MoE combined with the Ministries of Martyrs, Disabled and Social Affairs, Administrative
Affairs, Public Health, Higher Education, and Foreign Affairs accounted for about 68 percent of ARTF disbursements during this
same period.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                         Page 9
implementation units and other ministry project staff in order to build Afghan capacity to manage ARTF
funds in accordance with World Bank requirements.

Challenges in Developing and Sustaining Capacity within the Civil Service Result in
Afghanistan’s Continued Reliance on Non-Civil Service Personnel

Although the Afghan government has taken steps to increase its capacity to oversee ARTF funds, much
of this capacity resides outside of the Afghan civil service. The World Bank considers various risks when
proposing and implementing new ARTF-funded projects. This includes assessing the implementing
agency’s capacity and, if necessary, plans for enhancing this capacity. Due to the lack of capacity in many
Afghan ministries, the World Bank has incorporated capacity building in ARTF-funded projects to help
address this weakness. In addition, the World Bank allows ministries to use a portion of ARTF
development project funds to obtain staff outside of the Afghan civil service, such as Afghan contractors
or international implementation consultants. These staff provide additional expertise to manage ARTF
funds and projects. For example, the international firm Deloitte Consulting Overseas Projects provides
the MRRD’s NSP program implementation unit with financial management assistance, and the United
Nations Office for Project Services handles financial management for NERAP, which the MRRD and the
MoPW implement jointly. The responsibilities of the consultants and contractors vary based on the
capacity of the implementing ministry. Depending on the needs of the project, the capacity building
element, which includes costs to obtain outside staff, ranges from 8 to 13 percent of total development
project funding, thus decreasing the amount of ARTF funds Afghan ministries spend directly on project
implementation. 26 In addition, CAO utilizes the international firm PKF International to provide technical
assistance on ARTF-related audits. Thus, while the capacity of Afghan staff to manage ARTF-funded
projects is increasing, this increase is not entirely within the Afghan civil service, and the Afghan
government is not developing long-term, sustainable civil service capacity.

In addition to relying on contractor and international staff outside of the civil service, civil servants in
many ministries receive salary supplements from donors to augment their civil service salaries. These
supplements come in the form of incentive payments, allowances, overtime premiums, and extra
payments incurred during the performance of regular duties or during regular office hours. As we
previously reported, as of February 2010, the United States and the World Bank had provided an
estimated $26.4 million, or 59 percent, of the approximately $45 million in donor salary support
reported to the MoF.27 Officials in the MoF told us that many personnel continue to receive salary
support from the international community. One senior MoE official told us that he would not be able to
remain in his current civil service position without salary support.

Afghan government officials stated that pay disparities between Afghan civil service positions and
Afghans paid as contractors or consultants have made it difficult for the Afghan government to attract
and retain qualified Afghan staff in the civil service. Moreover, educated and trained civil servants are
likely to leave the civil service for better paying jobs as contractors or with international firms once they
gain expertise. Furthermore, Afghan personnel employed by international consulting firms are not likely
to seek civil service positions. A MoE official told us that many of his former colleagues in the ministry’s
Finance and Accounting Department left for better paying jobs with more seniority. He added that the
department could fill only 122 of 257 authorized positions due to low pay and a lack of applicants with
even basic qualifications.


26
  These figures do not include projects that are specifically designed to build Afghan capacity.
27
  See SIGAR Audit-11-5, Actions Needed to Mitigate Inconsistencies in and Lack of Safeguards over U.S. Salary Support to
Afghan Government Employees and Technical Advisors, October 29, 2010.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                     Page 10
Both the Afghan government and the World Bank are taking steps to decrease the government’s
reliance on contractors and international firms. For example, the MRRD is developing a plan to transition
completely from contractors and international staff to civil service staff in the next 5 years. In addition,
the Afghan government is continuing with efforts to implement pay and grade reform across the
government with the goal of increasing civil service salaries. However, to date, these salaries remain
inadequate to attract personnel with the needed skills or to compete with higher paying positions as
civil servants receiving salary support, contractor positions, and positions with international consultants.
In addition, during the most recent round of the ARTF Incentive Program, the World Bank included a
benchmark requiring the Afghan government to report on the status of implementing pay and grade
reform. Despite these efforts, World Bank and ministry officials stated that salary disparities remain a
challenge to building the Afghan government’s capacity in the long-term.


CONCLUSION

The United States and other donors have pledged to provide a substantial portion of development
assistance through the Afghan government budget. ARTF is the main mechanism by which donors can
provide direct assistance to the Afghan government. By contributing to ARTF, donors rely on the World
Bank, the fund’s administrator, to monitor and account for the use of contributions to the fund. This
includes providing oversight of Afghan ministries receiving funds. The World Bank and the Afghan
government have established several mechanisms to independently monitor and account for ARTF
funds. However, opportunities exist to strengthen these mechanisms and enhance oversight of ARTF
funds. The World Bank’s new monitoring agents for both the Recurrent Cost and Investment Windows
provide the World Bank with an opportunity to ensure that oversight of ARTF funds includes site visits to
the provinces, as well as, to ministries in Kabul, and to enhance its reporting to donors on the results
and outcomes of ARTF-funded development projects. Although the Afghan government has increasingly
taken on more responsibility for managing and accounting for ARTF funds, ministries continue to face
challenges in developing and sustaining the civil service expertise needed to manage and account for
these funds. In the absence of sufficient and qualified civil service personnel, ministries have had to
obtain the required expertise from civil servants receiving salary supplements and from non-civil service
personnel. Furthermore, Afghan personnel employed outside of the civil service may be unlikely to seek
permanent civil service positions. This could hinder the Afghan government’s ability to further develop
and sustain the long-term, civil service capacity needed to manage and account for development
funding, including ARTF funds and other direct assistance.


RECOMMENDATIONS

To strengthen and enhance oversight of ARTF funds, we recommend that the U.S. Ambassador to
Afghanistan, in coordination with other ARTF donors, urge the World Bank to:

    1. Include explicit language in the new Recurrent Cost Window monitoring agent’s contract and
       terms of reference to require the agent to make necessary arrangements to conduct site visits in
       both Kabul and the provinces, on a sample basis, to verify the eligibility of the Afghan
       government’s operating expenditures.
    2. Enhance reporting to all donors on development project results and outcomes by regularly
       including this information in its quarterly reports to donors or by systematically distributing
       supervision mission reports to all ARTF donors.



SIGAR Audit-11-14 Development and Governance/ARTF                                                   Page 11
To ensure that Afghan ministries further develop and sustain the staff expertise needed to manage and
account for development funding, including ARTF funds, we recommend that the U.S. Ambassador to
Afghanistan, in coordination with the World Bank and other donors:

    3. Assist the Afghan government with capacity building efforts, such as developing plans to
       completely transition to Afghan civil service staff and completing pay and grade reform, which
       would enhance the Afghan government’s ability to attract and retain qualified staff.


COMMENTS

The U.S. Embassy in Kabul and the World Bank provided written comments on a draft of this report.
These comments are reproduced in appendices VI and VII, respectively. The World Bank also provided
technical comments, which we have incorporated as appropriate.

In its response, the U.S. Embassy in Kabul noted steps that the World Bank is taking to respond to our
first two recommendations. The U.S. Embassy described several ongoing efforts to address our third
recommendation to enhance the Afghan government’s capacity to manage and account for
development funding. For example, USAID has begun working with the Afghan Civil Service Commission
to transfer contracted staff under the Afghanistan Civil Service Support program to civil service positions
within the commission.

In its response, the World Bank discussed steps it is taking to respond to our three recommendations.
Regarding our first recommendation, the World Bank indicated that it plans to ensure that explicit
language is included in the new Recurrent Cost Window monitoring agent’s contract and terms of
reference to require provincial site visits. If accomplished, this will provide an additional layer of
oversight of these funds. With respect to our second recommendation, the World Bank described
reporting mechanisms that are already in place, such as online and paper distribution of its quarterly
reports to donors and online posting of biannual project implementation status reports, and steps that it
is taking to enhance reporting. The World Bank commented that we incorrectly stated that it does not
regularly disseminate reporting on the results and outcomes of ARTF-funded development projects to all
ARTF donors. Although we agree that the quarterly reports are available and disseminated to all donors,
these reports do not include detailed information on development project results and outcomes. We
discuss in the report and agree that a series of World Bank reports, such as supervisory mission reports
and implementation status reports, provide valuable information on the results and outcomes of
specific projects. However, we disagree that these reports are readily available to all donors. For
example, supervision mission reports are routinely provided only to donors funding a particular ARTF
sector and implementation status reports are generally available only for ongoing projects. We believe
that it would be valuable to make information on project results and outcomes more readily available to
all ARTF donors. Finally, with regard to our third recommendation, the World Bank noted the
importance of building the capacity of the Afghan government. The World Bank commented that the
ARTF is well placed to provide a common vehicle for capacity building and bringing salary scales in line
with long-term sustainability, and discussed current plans for an ARTF-financed initiative to develop the
capacity of the Afghan government.




SIGAR Audit-11-14 Development and Governance/ARTF                                                  Page 12
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of the use of and accountability for U.S. funds contributed to the
Afghanistan Reconstruction Trust Fund (ARTF). This report assesses the extent to which (1) the World
Bank and the Afghan government have established and implemented mechanisms to independently
monitor and account for donor contributions to ARTF, and (2) the Afghan government has developed
the capacity to monitor and account for ARTF funds. While the ARTF has been in place since 2002, we
largely limited our review to developments and oversight activities that took place from 2008 to 2011
because total U.S. contributions to ARTF from 2008 to 2011 are almost double total U.S. contributions
from 2002 to 2007. With respect to ARTF-funded development projects, we focused primarily on the
National Solidarity Program (NSP), the Education Quality Improvement Program (EQUIP), and the
National Emergency Rural Access Project (NERAP). These are the largest ongoing projects in terms of
committed ARTF funding. In addition, these projects have received 97 percent of the approximately
$542 million in U.S. contributions to the fund that have been designated for development projects. This
report is one in a series of SIGAR performance audits examining U.S. and other donor assistance
provided to enhance the Afghan government’s oversight capacity and prevent corruption.

To assess the extent to which the World Bank and Afghan government have established and
implemented mechanisms to monitor and account for donor contributions to the ARTF, we reviewed
and analyzed a U.S. Agency for International Development (USAID) grant agreement, and associated
modifications, with the World Bank; data detailing contributions to the fund; and U.S. foreign affairs
appropriations laws and requested funding. We also reviewed various U.S. Embassy cables addressing
ARTF developments and issues. In addition, we analyzed World Bank quarterly reports to donors and
monthly Administrator’s reports. We also examined the World Bank’s ARTF grant agreement with the
Afghan government; policies and procedures for financial management, procurement, and project
oversight; and development project documents, including project proposals and supervision reports. We
analyzed World Bank project supervision documents for NSP, EQUIP, and NERAP. We reviewed the ARTF
monitoring agent’s contracts with the World Bank, annual and quarterly reports from 2009 to 2010, and
World Bank evaluations of the monitoring agent’s performance. In February 2011, we observed two
bank project oversight missions for NSP and the Kabul Urban Rehabilitation Project II, and attended a
monthly ARTF Management Committee meeting. With respect to the Afghan government, we reviewed
annual national budgets, development project documents, and results of the Control and Audit Office’s
(CAO) ARTF-related audits. We also reviewed external evaluations of the ARTF, as well as prior SIGAR
audit reports on CAO 28 and NSP. 29 In addition, we interviewed U.S. officials at the embassy in Kabul
representing the Office of the Coordination Director of Development and Economic Affairs, USAID,
Department of the Treasury, and Rule of Law. We also interviewed officials of the World Bank, including
the World Bank’s Kabul-based financial management and procurement teams and task team leaders for
EQUIP and NERAP, and the monitoring agent, PricewaterhouseCoopers-Netherlands. In addition, we
interviewed ARTF Management Committee representatives from the Asian Development Bank, Islamic
Development Bank, United Nations Assistance Mission in Afghanistan, United Nations Development
Program, and the Afghan Ministry of Finance (MoF). In addition to MoF, we interviewed officials in the
Afghan Ministries of Rural Rehabilitation and Development (MRRD), Public Works (MoPW), and
Education (MoE), and CAO. We also interviewed Kabul-based representatives from 11 of the 32 ARTF
donors, specifically Australia, Belgium, European Union, Finland, France, Germany, India, Italy, the

28
   See SIGAR Audit-10-8, Afghanistan’s Control and Audit Office Requires Operational and Budgetary Independence, Enhanced
Authority, and Focused International Assistance to Effectively Prevent and Detect Corruption, April 9, 2010.
29
  See SIGAR Audit-11-8, SIGAR released an audit report on the NSP entitled Afghanistan's National Solidarity Program Has
Reached Thousands of Afghan Communities, but Faces Challenges that Could Limit Outcomes, March 22, 2011.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                 Page 13
Netherlands, Norway, and the United Kingdom. As of April 20, 2011, these 11 donors and the United
States accounted for almost 78 percent of ARTF contributions.

To assess the extent to which the Afghan government has developed the capacity to oversee and
account for ARTF funds, we analyzed World Bank project supervision documents for NSP, EQUIP, and
NERAP, and observed two bank project oversight missions for NSP and the Kabul Urban Rehabilitation
Project II. We also reviewed Afghanistan’s national budget, management, and development project
documents. We also reviewed prior SIGAR performance audit reports on CAO, 30 NSP, 31 and salary
support to Afghan officials. 32 In addition, we interviewed officials of the World Bank, including financial
management and procurement personnel and EQUIP and NERAP task team leaders. We also
interviewed Afghan government officials in the MoF, the MRRD, the MoPW, the MoE, and CAO.

We conducted work in Kabul, Afghanistan, and Washington, D.C., from November 2010 to July 2011, in
accordance with generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. The audit was
conducted by the Office of the Special Inspector General for Afghanistan Reconstruction in accordance
with GAGAS and under the authority of Public Law No. 110-181, as amended, the Inspector General Act
of 1978, and the Inspector General Reform Act of 2008.




30
   See SIGAR Audit-10-8.
31
   See SIGAR Audit-11-8.
32
   See SIGAR Audit-11-5, Actions Needed to Mitigate Inconsistencies in and Lack of Safeguards over U.S. Salary Support to
Afghan Government Employees and Technical Advisors, October 29, 2010.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                      Page 14
APPENDIX II: U.S. AND OTHER DONOR CONTRIBUTIONS TO ARTF

As of April 20, 2011, 32 donors have contributed approximately $4.29 billion to ARTF. 33 Table I shows
the top 10 ARTF donors since the fund’s creation.


     Table I: Top 10 ARTF Donors, as of April 20, 2011
                                                      Paid-in contributions     Percent of total
     Donor                                                     (US$ million) ARTF contributions

     United States                                                    $972                   22.6%

     United Kingdom                                                   $862                   20.1%

     Canada                                                           $531                   12.4%

     Netherlands                                                      $355                    8.3%

     European Union/European Commission                               $352                    8.2%

     Germany                                                          $305                    7.1%

     Norway                                                           $241                    5.6%

     Sweden                                                           $159                    3.7%

     Australia                                                          $99                   2.3%

     Spain                                                              $85                   2.0%

     Total                                                          $3,961                   92.3%

     Source: World Bank ARTF Administrator’s Report on Financial Status as of April 20, 2011.

As the largest donor, the United States has contributed approximately $972 million to ARTF. About
$430 million of this has been unpreferenced while the remaining $542 million has been preferenced for
development projects. 34 About $490 million, or 90 percent, of U.S.-preferenced funds have gone to the
National Solidarity Program (NSP), which aims to build local governance by setting up community
development councils and training them to manage small-scale projects funded by block grants, and
Community Recovery under the NSP. 35 Table II shows a breakdown of U.S. contributions to ARTF by
funding type—preferenced versus non-preferenced—and development project.




33
   This includes a $2.4 million contribution from the United Nations Development Program for the Afghan Interim Authority
fund, and approximately $21.6 million in pass-through funding to the Law and Order Trust Fund for Afghanistan.
34
   A preference is a formal recognition by the World Bank of a donor’s decision to allocate up to 50 percent of its annual ARTF
contribution to specific Investment Window-funded development projects. While the World Bank has honored all preferences
to date, they are not guaranteed. The Recurrent Cost Window has priority for unpreferenced ARTF funds.
35
   On March 22, 2011, SIGAR released an audit report on the NSP entitled Afghanistan's National Solidarity Program Has
Reached Thousands of Afghan Communities, but Faces Challenges that Could Limit Outcomes (SIGAR Audit-11-8).



SIGAR Audit-11-14 Development and Governance/ARTF                                                                      Page 15
Table II: U.S. Contributions to the ARTF from March 2002 to April 2011, as of April 20, 2011
                                                                   Contributions (US$ million)

                                        March March March March March March March March March March
                                        2002- 2003- 2004- 2005- 2006- 2007- 2008- 2009- 2010- 2011-
                                        March March March March March March March March March March
Type of funding                          2003 2004 2005 2006 2007 2008 2009 2010 2011 2012                                   Total

Unpreferenced                           $38.0   $20.0   $68.8   $60.0   $48.9     $0.0    $57.0 $102.5     $35.0     $0.0 $430.2
Preferenced                              $0.0    $0.0   $20.8    $2.0   $25.0     $0.0 $102.5 $161.5 $230.0          $0.0 $541.8
     National Solidarity Program                        $10.0           $25.0             $65.0 $160.0 $180.0              $440.0
     Community Recovery under
     NSP                                                                                                   $50.0             $50.0
     National Emergency Rural
     Access Project                                              $2.0                     $21.0                              $23.0
     Education Quality
     Improvement Program                                                                  $12.0                              $12.0
     Microfinance for Poverty
     Reduction                                           $5.0                                                                 $5.0
     Civil Service Capacity Building                     $4.3                                                                 $4.3
     Skills Development Project                                                            $3.0                               $3.0
     Justice Sector Reform Project                                                                  $1.5                      $1.5
     Technical Assistance Feasibility
     Studies                                             $1.5                                                                 $1.5
     Management Capacity
     Program                                                                               $1.0                               $1.0
     Rural Water Supply and
     Sanitation                                                                            $0.5                               $0.5
Total ARTF Contributions                $38.0   $20.0   $89.6   $62.0   $73.9     $0.0 $159.5 $264.0 $265.0          $0.0 $972.0
Source: SIGAR analysis of World Bank ARTF Administrator’s Report on Financial Status as of April 20, 2011.
Note: Contriutions are based on the Afghan fiscal year, which is the solar year. The solar year begins in late March and ends late
March the subsequent year. For example, solar year 1389 began on March 21, 2010, and ended on March 20, 2011.

The United States has expressed its intention to channel at least 50 percent of development funds
through Afghanistan’s core budget and to align 80 percent of development assistance with Afghanistan’s
development priorities by 2012. ARTF supports U.S. efforts to meet these objectives by funding
development projects in key sectors—agriculture, governance, rule of law, and Afghan-led
reintegration—that the United States has identified as critical to the Afghanistan reconstruction effort.
The United States provides contributions to ARTF through a grant from USAID to the World Bank. In
fiscal year 2010, the United States pledged an additional $650 million in funding to ARTF, of which
$250 million 36 has been contributed as of May 2011. 37 USAID requested another $650 million in its fiscal

36
   Of the $250 million the United Stated has contributed for fiscal year 2010, USAID contributed $200 million while the
Department of Defense contributed the remaining $50 through its Commander’s Emergency Response Program.
37
   Per fiscal year 2010 supplemental appropriations law, Pub. L. No. 111-212, §1002 and §1004(c), and accompanying Senate
report 111-188, Congress is withholding the remaining $400 million in fiscal year 2010 ARTF funds pending a Department of
State report determining whether the Afghan government is: a) cooperating with United States reconstruction and reform
efforts; b) demonstrating a commitment to accountability by removing corrupt officials, implementing fiscal transparency and



SIGAR Audit-11-14 Development and Governance/ARTF                                                                       Page 16
year 2011 budget request and plans to request $600 million more for fiscal year 2012. This would
increase total U.S. contributions to about $2.6 billion through fiscal year 2012. However, final funding
levels will depend on Congressional approval. 38




other necessary reforms of government institutions, and facilitating active public engagement in governance and oversight of
public resources; and c) respecting the internationally recognized human rights of Afghan women.
38
   The Department of Defense and Full-Year Continuing Appropriations Act, 2011, Pub. L. No. 112-10, §2122(c), includes a
provision that requires the Secretary of State to suspend funding for ARTF if the department determines and reports to
Congress that the World Bank monitoring agent for ARTF is unable to conduct its financial control and audit responsibilities due
to restrictions on security personnel by the Afghan government.



SIGAR Audit-11-14 Development and Governance/ARTF                                                                      Page 17
APPENDIX III: ARTF RECURRENT COST WINDOW AND INCENTIVE PROGRAM

The Afghanistan Reconstruction Trust Fund (ARTF) Recurrent Cost Window finances the Afghan
government’s non-security related operating budget. This largely consists of payroll costs for Afghan civil
servants as well as some expenditures for operations and maintenance, pension, and non payroll-based
items. 39 The Recurrent Cost Window funds these costs on a reimbursable basis up to a pre-determined
funding cap. In order for the Afghan government to receive reimbursement for its operating
expenditures, the expenditures must meet eligibility criteria defined in the ARTF grant agreement
between the World Bank and the Afghan government. As of April 20, 2011, the Recurrent Cost Window
had disbursed a total of about $1.7 billion to fund payroll and $532 million to fund operations and
maintenance expenditures (see table III).


Table III: ARTF Recurrent Cost Window Disbursements from March 2002 to April 2011, as of April 20,
2011
                                                          Disbursements (US$ million)

                   March     March     March     March     March     March     March     March     March     March
                   2002-     2003-     2004-     2005-     2006-     2007-     2008-     2009-     2010-     2011-
Operating Cost     March     March     March     March     March     March     March     March     March      April
Category            2003      2004      2005      2006      2007      2008      2009      2010      2011      2011        Total

Payroll            $40.95 $145.77 $179.32 $174.21 $216.20 $203.00 $276.74 $148.31 $281.90                    $24.57 $1,690.97
Operations and
maintenance        $13.65    $51.16    $55.28    $79.04    $84.01    $87.55    $33.32    $73.11    $54.78     $0.00    $531.91
Total              $54.60 $196.93 $234.60 $253.25 $300.21 $290.55 $310.06 $221.42 $336.68                    $24.57 $2,222.88
Source: SIGAR analysis of World Bank ARTF Administrator’s Report on Financial Status as of April 20, 2011.
Note: Disbursements are based on the Afghan fiscal year, which is the solar year. The solar year begins in late March and ends
late March the subsequent year. For example, solar year 1389 began on March 21, 2010, and ended on March 20, 2011.

In December 2008, the World Bank, the Afghan government, and ARTF donors agreed to the
establishment of the Incentive Program within the Recurrent Cost Window. The objective of the
Incentive Program is to support Afghan government-led reforms and the government’s progress toward
achieving fiscal sustainability. With the implementation of the program, baseline funding for
Afghanistan’s operating budget provided through the Recurrent Cost Window began to decrease by
$25 million per year beginning in March 2009. At this rate, the Recurrent Cost Window will ultimately
reach zero in 2019. The Incentive Program helps to offset this decrease by providing the Afghan
government with additional funds for meeting pre-defined benchmarks in such areas as revenue
generation, public sector governance, and private sector development. Thus, the program places
conditionality on ARTF funding. While the World Bank disburses Incentive Program funds from the
Recurrent Cost Window, the Afghan government uses these funds to finance programs under its
development budget.

The Incentive Program is entering its fourth round. Negotiations on new program benchmarks began in
February 2011 and are expected to conclude by summer 2011. During the third round, which ended
December 2010, the program offered the Afghan government up to $70 million in incentive funds.
These funds will be available for disbursement to the Afghan government from March 2011 through


39
  Non-payroll based expenditures are similar to operations and maintenance expenditures but directly support personnel. Such
expenditures include food allowances and transportation.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                     Page 18
March 2012. Table IV shows the amount funding for the Incentive Program from March 2008 to March
2012 as well as baseline recurrent cost funding.


Table IV: ARTF Baseline Recurrent Cost Funding, Actual Incentive Program Allocations as of May
2011, and Potential Incentive Program Allocations
                                                                      Program Year (US$ million)

                                              March 2008- March 2009- March 2010- March 2011- March 2012-
                                              March 2009 March 2010 March 2011 March 2012 March 2013

Baseline Recurrent Cost Funding                        $276            $250             $225            $200            $175
Incentive Program                                         $0             $40           $63.8             $70              $70
Total Recurrent Cost Window Funding                    $276            $290          $288.8             $270            $245
Source: ARTF Incentive Program SY1389 (2010/11) Memorandum of Understanding (July 28, 2009) and World Bank
responses to SIGAR questions (May 2011).
Notes: Funding for the Incentive Program is disbursed the year following when program benchmarks are to be met. For
instance, World Bank disbursed funds between March 2008 and March 2009 to the Afghan government for meeting
benchmarks the previous year.
Disbursements are based on the Afghan fiscal year, which is the solar year. The solar year begins in late March and ends
late March the subsequent year. For example, solar year 1389 began on March 21, 2010, and ended on March 20, 2011.


The Incentive Program has been positively received by the World Bank, many ARTF donors, and the
Afghan government. Officials noted that the program provides a platform for discussing reforms within
the Afghan government. The World Bank and donors are currently examining ways to reform and
strengthen the program, including increasing the length of program rounds from one to three years with
multi-year, rather than single-year, benchmarks. However, the lack of an International Monetary Fund
Extended Credit Facility program in Afghanistan may affect the ability of the World Bank to disburse
funds from the Incentive Program and may have a broader impact on donor funding in Afghanistan. 40

Since 2004, the amount of Recurrent Cost Window funding as a percentage of Afghanistan’s core
operating budget has decreased steadily. From March 2011 to March 2012, the ARTF is expected to fund
approximately 5.9 percent of Afghanistan’s total operating budget (see figure I).




40
  The IMF Extended Credit Facility program in Afghanistan, which ended on September 25, 2010, aimed at continuing the
process of rebuilding key economic institutions, putting public finances on a sustainable path, and laying the foundation for
economic stability and low inflation, growth, and poverty reduction. IMF did not immediately renew the program due to fallout
from the Kabul Bank crisis, and is currently in negotiations with the Afghan government on a new Extended Credit Facility
program. Some donors have indicated that the lack of an IMF program will make it difficult for them to continue providing
development assistance to Afghanistan. To date, U.S. officials have not indicated that this will affect its funding to the ARTF in
the short-term, though they are discussing the potential long-term impact on U.S. funding. Unlike other donor countries, the
U.S. is not legally prohibited from providing assistance to Afghanistan without there being an ECF program in place.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                        Page 19
Figure I: Actual and Projected ARTF Recurrent Cost Window
Funding as a Percentage of Afghanistan’s Operating Budget from
2003 to 2016
                                               60.00%
   Percentage of GIRoA Budget Funded by ARTF




                                               50.00%


                                               40.00%


                                               30.00%


                                               20.00%


                                               10.00%


                                                0.00%




Source: SIGAR analysis of World Bank Afghanistan Reconstruction Trust Fund
Quarterly report: September 22, 2010 to December 21, 2010, and the Afghan
government’s 1389 National Budget Statement.
Note: ARTF funding as a percentage of Afghanistan’s operating budget for the
Afghan fiscal year ending in March 2012 and beyond is based on projected
expenditures while prior years are based on actual expenditures.




SIGAR Audit-11-14 Development and Governance/ARTF                              Page 20
APPENDIX IV: ARTF INVESTMENT WINDOW

The ARTF Investment Window provides grant funding for development projects that support the
national priority programs defined in Afghanistan’s development budget. To date, the Investment
Window has disbursed a total of about $1.31 billion to fund 34 development projects, 19 of which were
ongoing as of April 20, 2011. 41 With respect to overall funding commitments, the largest ongoing
projects are the National Solidarity Program III, the Education Quality Improvement Program II, and the
National Emergency Rural Access Project (see table V). These projects focus primarily on development in
rural areas.


Table V: Total ARTF Investment Window Commitments and Disbursements from March 2002 to
April 2011, as of April 20, 2011
                                                       Total committed          Disbursements Percent of committed
Investment project                                         (US$ million)          (US$ million)    funds disbursed

Ongoing (19)                                                    $793.15                 $346.31                 43.7%
     National Solidarity Program III                             $250.00                 $44.50                 17.8%
     Education Quality Improvement Program II                     $85.00                 $84.78                 99.7%
     National Emergency Rural Access Project                      $80.00                 $35.16                 44.0%
     Other projects (16)                                         $378.15                $181.87                 48.1%
Closed (15)                                                     $962.03                 $962.03                  100%
Total                                                         $1,755.18               $1,308.34
Source: SIGAR analysis of World Bank ARTF Administrator’s Report on Financial Status as of April 20, 2011.

Table VI shows information on the 19 ongoing ARTF-funded development projects. The United States
has provided funding to six of these projects: the Management Capacity Program, Justice Sector Reform
Project, Skills Development Project, Education Quality Improvement Program II, National Emergency
Rural Access Project, and National Emergency Solidarity Program III.




41
  The 34 total ARTF-funded development projects include two police projects funded via a pass-through of ARTF funds to the
United Nations Development Program-administered Law and Order Trust Fund for Afghanistan. In addition, some projects, such
as NSP and EQUIP, have multiple phases, each of which is counted as a separate project.
SIGAR Audit-11-14 Development and Governance/ARTF                                                                Page 21
Table VI: Ongoing ARTF Investment Window-funded Development Projects, as of April 20, 2011
                                                                    Planned           Funds         Funds
                                                                    closing       committed disbursed (U$      Percentage of
Project                         Objective                           date        (US$ million)     million)   funds disbursed

                                Improve reliability of the power
Rehabilitation of Naghlu                                            September
                                supply in Kabul
Hydropower Plant                                                    2012             $20.00        $12.43               62%
                                Provide urban areas with
Urban Water Supply and          sustainable, improved water         December
Sanitation                      supply and sanitation services      2010             $41.00        $40.86             100%
                            Improve the capacity of key             December
Management Capacity Program government departments                  2011             $15.00         $8.00               53%
                                Provide more reliable and higher
Kabul-Aybak/Mazar-e-Sharif      quality power to Kabul, Aybak, and September
Power Project                   Mazar-e-Sharif cities              2011              $57.00        $36.71               64%
                                Adopt improved practices to
Horticulture and Livestock      increase horticulture and livestock December
Program                         productivity                        2011             $34.30        $20.40               59%
                                Improve delivery of basic urban
                                services in vulnerable communities
                                in Kabul through upgrading urban
                                infrastructure and enhancing the
                                capacity of Ministry of Urban
Kabul Urban Reconstruction      Development and Kabul              December
Project                         Municipality                       2011               $5.60         $2.53               45%
                                Strengthen the state justice
                                system and increase access to
Justice Sector Reform Project   justice                             June 2011        $27.75         $9.50               34%
                               Restore basic operational
Strengthening Higher Education performance at core universities in December
Project                        Afghanistan                         2012               $5.00         $2.44               49%
                                Increase access to power grid and
                                quantity of power to Pul-i-Khumri,
Power System Development        Charikar, Gulbahar, and Jabul-Seraj
Project                         urban centers                       July 2012        $60.00         $7.89               13%
Kabul Urban Roads               Improve traffic flow on priority    December
Improvement Project             corridors of Kabul's urban roads    2011             $18.00         $9.69               54%
                             Build capacity to undertake
                             strategic basin planning and
Water Resources Development improve project preparation for         March
Technical Assistance Project water resources development            2011              $5.50         $1.09               20%
                                Increase access to high-quality
                                vocational education and training
                                in management, administration,      February
Skills Development Project      and ICT                             2013              $9.00         $7.55               84%

Second Education Quality        Increase access to basic education September
Improvement Program                                                2012              $85.00        $84.78             100%
                                Increase access to services in rural
National Emergency Rural        areas with secondary and tertiary December
Access Project                  roads                                2013            $80.00        $35.16               44%
                                Improve the health and nutritional
                                status of Afghans, with a greater
Strengthening Health Activities focus on women and children and September
for the Rural Poor              under-served parts of the country 2013               $22.00        $21.77               99%

SIGAR Audit-11-14 Development and Governance/ARTF                                                                   Page 22
                                                                  Planned             Funds         Funds
                                                                  closing         committed disbursed (U$       Percentage of
Project                        Objective                          date          (US$ million)     million)    funds disbursed

                               Preparation grant to design project
                               to assist farmers in adopting
                               improved farm practices to
On Farm Water Management       increase agricultural production by
Project (preparation)          enhancing water efficiency          June 2011           $1.00          $0.61              61%
Afghanistan Rural Enterprise
Development Project                                                                   $16.00          $0.40               3%
                                                                  NSP II:
                                                                  September
                                                                  2011
                                                                  NSP III:
Third Emergency National       Improve local governance,          September
Solidarity Program             reconstruct rural infrastructure   2015               $250.00         $44.50              18%
On Farm Water Management
Project                                                                               $41.00          $0.00               0%
Total                                                                                $793.15       $346.31               44%

Source: SIGAR analysis of World Bank ARTF Administrator’s Report on Financial Status as of April 20, 2011.
Note: Projects highlighted in blue represent projects that received preferenced funding from the United States.

Table VII displays 13 ARTF-funded development projects that had closed as of April 20, 2011. The United
States has funded six of these projects: Technical Assistance Feasibility Studies, National Solidarity
Program I and II, Education Quality Improvement Program, Rural Water Supply and Sanitation,
Microfinance for Poverty Reduction, and Civil Service Capacity Building.




SIGAR Audit-11-14 Development and Governance/ARTF                                                                    Page 23
Table VII: Closed ARTF Investment Window-funded Development Projects, as of April 20, 2011
                                                                                                 Funds          Funds    Percentage
                                                                                             committed      disbursed       of funds
Project                             Objective                                              (US$ million) (US$ million)    disbursed

United Nations Development          Not managed by the World Bank, funds passed to
Program Police Project 1 and 2      UNDP                                                          $4.84         $4.84         100%
Technical Assistance Feasibility    Build capacity of government by providing
Studies                             expertise to line ministries                                $16.97         $16.97         100%
National Emergency Employment       Provide employment in rural areas at minimum
Program                             wage                                                        $52.82         $52.82         100%
United Nations Development          Not managed by the World Bank, funds passed to
Program Police Project 3            UNDP                                                        $16.80         $16.80         100%
                                    Rehabilitate the Ministry of Communications'
                                    communications facilities, improve revenue
                                    collection, and speed progress toward private
Telecom and Microwave Link          sector telecommunications services                            $6.01         $6.01         100%
Kabul Roads and Drainage System                                                                   $2.80         $2.80         100%
                                    Improve availability and reliability of power supply
Kabul Power Supply                  in Kabul                                                      $7.43         $7.43         100%
Strengthening Financial Capacity of Improve financial management capacities of the
the Government                      Ministry of Finance and select industries                     $4.06         $4.06         100%
                                     Improve local governance, reconstruct rural
National Solidarity Program I and II infrastructure                                            $618.19        $618.19         100%
Education Quality Improvement
Program                             Increase access to basic education                          $44.00         $44.00         100%
                                    Improve rural health through provision of safe
Rural Water Supply and Sanitation   drinking water and sanitation services                        $6.23         $6.23         100%
                                   Improve livelihoods by supporting entrepreneurial
Microfinance for Poverty Reduction spirit and skills                                           $168.94        $168.94         100%
                                    Meet the short-term capacity needs of the Afghan
Civil Service Capacity Building     civil service                                               $12.95         $12.95         100%
Total                                                                                          $962.04        $962.04

Source: SIGAR analysis of World Bank ARTF Administrator’s Report on Financial Status as of April 20, 2011.
Note: Projects highlighted in blue represent projects that received preferenced funding from the United States. National
Solidarity Program and Microfinance for Povery Reduction funding totals combine two project phases.

Since 2003, the amount of ARTF Investment Window funding as a percentage of Afghanistan’s
development budget has fluctuated. From March 2011 to March 2012, the ARTF is expected to fund
approximately 15.9 percent of Afghanistan’s development budget (see figure II).




SIGAR Audit-11-14 Development and Governance/ARTF                                                                           Page 24
Figure II: Actual and Projected ARTF Investment Window Funding
as a Percentage of Afghanistan’s Development Budget from 2003 to
2016
                                                0.4
   Percentage of GIRoA Budget Funded by ARTF




                                               0.35

                                                0.3

                                               0.25

                                                0.2

                                               0.15

                                                0.1

                                               0.05

                                                 0




Source: SIGAR analysis of World Bank Afghanistan Reconstruction Trust Fund
Quarterly report: September 22, 2010 to December 21, 2010, and the Afghan
government’s 1389 National Budget Statement.
Notes: The Afghan government did not have development expenditures during its
solar year ending in 2003. As a result, ARTF Investment Window funding was zero.
ARTF funding as a percentage of the Afghanistan’s development budget for the
Afghan fiscal year ending in March 2012 and beyond is based on projected
expenditures while prior years are based on actual expenditures.




SIGAR Audit-11-14 Development and Governance/ARTF                                  Page 25
APPENDIX V: ARTF OVERSIGHT MECHANISMS

Figure III summarizes ARTF oversight mechanisms for the Recurrent Cost and Investment Windows.


Figure III: Oversight Mechanisms for the ARTF Recurrent Cost and Investment Windows

               Recurrent Cost Window                                       Investment Window


              Supports the Afghan government’s                           Provides grant funding for projects that
              non-security operating costs (i.e., payroll and            support the Afghan government's
              operations and maintenance expenses)                       development priorities


              Disbursements: $2.22 billion in disbursements
              for wages and operations and maintenance                   Disbursements: $1.31 billion as of April 20,
              costs as of April 20, 2011                                 2011
                                                                         Number of projects funded: 34 total/19
                                                                         ongoing as of April 20, 2011a

              Oversight
              1. Monitoring agent contracted by World
                                                                         Oversight
              Bank – financial reviews Afghan government
              operating expenditures to determine                        1. World Bank task teams – conduct
              eligibility for ARTF reimbursement                         regular supervision missions to determine
                                                                         project implementation status, risks, and
              2. Control and Audit Office – conducts
                                                                         weakness, if any, in Afghan government
              financial audits of the Afghan government's
                                                                         project management and oversight
              operating account and financial statements
                                                                         2. Control and Audit Office – conducts
                                                                         financial audits of all Afghan government
                                                                         ARTF-funded project accounts and
                                                                         financial statements



Source: SIGAR analysis of World Bank and Afghan government data.
a
    Some projects, such as NSP and EQUIP, have multiple phases, each of which is counted as a separate project.




SIGAR Audit-11-14 Development and Governance/ARTF                                                                       Page 26
APPENDIX VI: COMMENTS FROM U.S. EMBASSY KABUL




SIGAR Audit-11-14 Development and Governance/ARTF   Page 27
SIGAR Audit-11-14 Development and Governance/ARTF   Page 28
SIGAR Audit-11-14 Development and Governance/ARTF   Page 29
SIGAR Audit-11-14 Development and Governance/ARTF   Page 30
APPENDIX VII: COMMENTS FROM THE WORLD BANK




SIGAR Audit-11-14 Development and Governance/ARTF   Page 31
SIGAR Audit-11-14 Development and Governance/ARTF   Page 32
SIGAR Audit-11-14 Development and Governance/ARTF   Page 33
SIGAR Audit-11-14 Development and Governance/ARTF   Page 34
SIGAR Audit-11-14 Development and Governance/ARTF   Page 35
                (This report was conducted under the audit project code SIGAR-037A).




SIGAR Audit-11-14 Development and Governance/ARTF                                      Page 36
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
